SUPREME COURT OF THE UNITED STATES
CHRISTOPHER HUDLER,
Applicant,
-v-

COMMONWEALTH OF PENNSYLVNIA

AFFIRMATION OF SERVICE

STATE OF NEW YORK — } METHOD OF SERVICING:
}ss: HAND XOVERNIGHT
COUNTY OF RICHMOND } MAIL COURIER

ERIC NELSON, ESQ., an Attorney duly admitted to practice law before the
Courts of the State of New York, hereby affirms under penalty of perjury and states:

Iam not a party of the action and am over 18 years of age and reside at 54
Florence Street, Staten Island, New York 10308. That on January 21,2021 Iserveda
copy of the annexed in the following manner:

Petition for Writ of Certiorari

By mailing the same in a sealed envelope, with postage prepaid thereon, in a post-office,
or in an official depository of the United States Postal Service within New York State,
addressed to the last known address of the addressee(s) as indicated below:

By delivering the same personally to the person or duly authorized person and at the
addresses indicated below (in court and on the record):

By transmitting the same to the attorney by electronic means to the telephone number
or other station or other limitation designated by the attorney for that purpose. In doing
so I received a signal form the equipment of the attorney indicating that the transmission
was received, and mailed a copy of same to that attorney, in a sealed envelope, with
postage prepaid thereon, in a post office or official depository of the United States Postal
Service within the State of New York, addressed to the last known address of the
addressee(s) as indicated below:

By depositing the same with an overnight delivery service in a wrapper properly
addressed. Said delivery was made prior to the latest time designated by the overnight
delivery service for overnight delivery. The address and delivery service are indicated
below.

Union County District Attorney
103 S. Second Street
Lewisburg, PA 17837

Pennsylvania State Attorney General
15" floor

Strawberry Square

Harrisburg, Pennsylvanial7120

Served to attention of Josh Shapiro

Attorney General
Tel No. (717) 787-3391

I declare (or certify, verify, or state)tynder penalty of perjury
that the foregoing is true and correct. Exécuted on (date).

Dated: January 27, 2021

 

 

 
